<html>
<title> - THE V-22 OSPREY: COSTS, CAPABILITIES AND CHALLENGES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
          THE V-22 OSPREY: COSTS, CAPABILITIES AND CHALLENGES 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2009

                               __________

                           Serial No. 111-32

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-387 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      LYNN A. WESTMORELAND, Georgia
JIM COOPER, Tennessee                PATRICK T. McHENRY, North Carolina
GERALD E. CONNOLLY, Virginia         BRIAN P. BILBRAY, California
MIKE QUIGLEY, Illinois               JIM JORDAN, Ohio
MARCY KAPTUR, Ohio                   JEFF FLAKE, Arizona
ELEANOR HOLMES NORTON, District of   JEFF FORTENBERRY, Nebraska
    Columbia                         JASON CHAFFETZ, Utah
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
DANNY K. DAVIS, Illinois             ------ ------
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 23, 2009....................................     1
Statement of:
    Sullivan, Michael J., Director of Acquisition and Sourcing 
      Management, accompanied by Jerry Clark, Senior Analyst, 
      Government Accountability Office; Dakota L. Wood, senior 
      fellow, Center for Strategic and Budgetary Assessments; 
      Lieutenant General George J. Trautman III, Deputy 
      Commandant for Aviation, accompanied by Lieutenant Colonel 
      Karsten Heckl, Commander, Marine Medium Tiltrotor Squadron 
      162 (VMM-162), U.S. Marine Corps; and Dr. Arthur Rex 
      Rivolo, U.S.A.F. (Ret.)/Aviation Expert....................    16
        Heckl, Lieutenant Colonel Karsten........................    60
        Rivolo, Arthur Rex.......................................    63
        Sullivan, Michael J......................................    16
        Trautman, Lieutenant General George J., III,.............    42
        Wood, Dakota L...........................................    34
Letters, statements, etc., submitted for the record by:
    Heckl, Lieutenant Colonel Karsten, Commander, Marine Medium 
      Tiltrotor Squadron 162 (VMM-162), U.S. Marine Corps, 
      prepared statement of......................................    61
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................     8
    Rivolo, Dr. Arthur Rex, U.S.A.F. (Ret.)/Aviation Expert, 
      prepared statement of......................................    65
    Sullivan, Michael J., Director of Acquisition and Sourcing 
      Management, prepared statement of..........................    18
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............    12
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................     3
    Trautman, Lieutenant General George J., III, Deputy 
      Commandant for Aviation, prepared statement of.............    44
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    95
    Wood, Dakota L., senior fellow, Center for Strategic and 
      Budgetary Assessments, prepared statement of...............    36


          THE V-22 OSPREY: COSTS, CAPABILITIES AND CHALLENGES

                              ----------                              


                         TUESDAY, JUNE 23, 2009

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:12 p.m., in 
room 2154, Rayburn House Office Building, Hon. Edolphus Towns 
(chairman of the committee) presiding.
    Present: Representatives Towns, Cummings, Kucinich, 
Tierney, Clay, Connolly, Quigley, Van Hollen, Cuellar, and 
Issa.
    Staff present: John Arlington, chief counsel--
investigations; Lisa Cody and Katherine Graham, investigators; 
Neema Guliani, investigative counsel; Adam Hodge, deputy press 
secretary; Carla Hultberg, chief clerk; Mike McCarthy, deputy 
staff director; Jesse McCollum, senior advisor; Steven Rangel, 
senior counsel; Ophelia Rivas, assistant clerk; Jenny 
Rosenberg, director of communications; Christopher Sanders, 
professional staff member; Ron Stroman, staff director; 
Laurence Brady, minority staff director; Jennifer Safavian, 
minority chief counsel for oversight and investigations; 
Frederick Hill, minority director of communications; Dan 
Blankenburg, minority director of outreach and senior advisor; 
Adam Fromm, minority chief clerk and Member liaison; Stephen 
Castor, minority senior counsel; Ashley Callen, minority 
counsel; and Glena Sanders, minority Defense fellow.
    Chairman Towns. The committee will come to order.
    Today's hearing is on the V-22 Osprey, an aircraft that has 
been in development for about 25 years and has a very 
controversial past. This hearing, however, looks beyond the 
checkered past and focuses on the current issues raised in a 
new report by the Government Accountability Office.
    According to the GAO, the V-22 has operational problems 
that raise serious questions as to whether the aircraft can 
accomplish the full range of its missions as a helicopter. It 
was intended to replace on the range of the mission provided by 
other modern helicopters. GAO found that the V-22 has problems 
with parts, maintenance, reliability, and availability. And I 
understand the reliability issue is one in which the Department 
of Defense concurs.
    In addition, GAO found that the V-22 may not be 
operationally effective in combating questions of the ability 
of the aircraft to operate in both extreme heat and extreme 
cold. In short, GAO found that the Osprey has severe 
operational and suitability problems.
    And these problems have not come cheap. Since 1983, more 
than $27 billion has been appropriated for the V-22 program. 
The cost per aircraft has almost tripled since the Osprey's 
inception to some $120 million each. And the cost of the 
programs may rise even higher given expected increases in 
operation and support costs.
    Let me be clear. The value of just one American service 
member is priceless. And if a $120 million aircraft like the V-
22 does the best job of protecting our troops and helping them 
to accomplish their mission, then it should be supported. But 
at $120 million per aircraft, the Osprey had better work as 
advertised.
    When we first convened this hearing a month ago, I decided, 
with the support of the ranking member, Congressman Issa, to 
postpone the hearing because the Department of Defense had 
failed to produce certain key records pertaining to the Osprey. 
It took them a few weeks to do it, but finally we obtained 
copies of the after-action report and other data we had 
requested.
    The additional documents raised even more serious questions 
about the V-22. The Marine Corps' own reports on the 
performance of the Osprey in Iraq reveals that the Osprey was 
restricted to a very limited role due to its vulnerability to 
hostile fire, its lack of maneuverability, and its 
unreliability in the heat and sand in Iraq.
    In the course of our investigation, we asked the Defense 
Department for an inventory of all their Ospreys and how many 
of those were ready for combat. The answer was both surprising 
and appalling. Since 1988, the Marine Corps has bought 105 
Ospreys; of this number, only 47 are considered combat 
deployable. Worse, we asked the Marine Corps how many of these 
are ready for combat on any given day. On the day the Marine 
Corps picked, June 3rd of this year, only 22 of these 47 
Ospreys were ready for combat. In other words, fewer than half 
would be used for combat on a good day.
    At this point, I have strong reservations about the future 
of this aircraft. And let me say, I am anxious to hear from our 
witnesses on this particular issue.
    At this point, I yield 5 minutes to the ranking member of 
the committee, Congressman Darrell Issa of California.
    [The prepared statement of Hon. Edolphus Towns follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. Thank you, Mr. Chairman. Thank you for holding 
this hearing today. And thank you again for postponing the 
original hearing to give a better opportunity for the 
Department of Defense to provide us with the information 
necessary to conduct our oversight.
    As Chairman Towns said, the Osprey has certainly had a 
checkered past. Additionally, with the high cost of the Osprey 
and the claimed unique mission, it is important that this 
committee be an honest broker.
    The V-22 clearly is a unique aircraft, a hybrid helicopter 
and airplane, it does enjoy an ability to fly faster and 
further than any helicopter in the fleet. Having said that, Mr. 
Chairman, I am a child of the 1960's and I am a soldier of the 
1970's. I had an opportunity in the 1977-1978 timeframe to be 
part of a research project dubbed TASFAL. TASFAL was a fly off 
between a great many aircraft designed to kill tanks.
    Fortunately, I was not a tank platoon leader at the time, 
and as we went through that, I became acutely aware that the 
Department of Defense and the U.S. Congress can, in fact, buy 
aircraft for unique missions that let us down. In this case, 
the A-10 was unable to perform as well as either attack 
helicopters, the Tow Cobra or even an F-4, in killing tanks, 
Soviet-equivalent tanks, and surviving. That has left me 
skeptical anytime someone tells me that an aircraft uniquely 
does a job.
    Like Ike Skelton from Missouri, I believe we have to make 
you prove it.
    Today, we are going to hear testimony that certainly 
surprised us. It showed us that, in fact, although this 
aircraft is unique and does meet certain specifications that 
may in the future be essential to a vertical lift, long self-
deployment and, in fact, a mission that could happen again but 
happened during my military career. In the 1970's, when our 
embassy was taken hostage in Iran, the absence of an aircraft 
like the Osprey caused us to have to refuel and refit in the 
desert. That mid-desert night led to the loss of both materiel 
and men that left us embarrassed and unable to rescue our 
embassy personnel in Tehran, ultimately having to wait until 
they were released at the whim of the Iranian Revolutionary 
Guard.
    Notwithstanding that great need and these many years later, 
we certainly have to ask, where are we today? And, as the 
chairman said, we are at 22 combat-ready aircraft on a given 
day. And if we accept that the Osprey is worth further 
investment--and as a Congressman with 44,000 Marines at Camp 
Pendleton, I hope in fact we will make that decision--then how 
do we go from a low readiness of an aircraft with great promise 
to one that, in fact, has higher readiness, better 
survivability and, in fact, is more prepared for that day in 
the desert or night in the desert that may never come again, 
but if it comes, we may need this aircraft?
    Mr. Chairman, thank you for holding this hearing. I look 
forward to the testimony.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Towns. Thank you very much.
    At this time, I yield 5 minutes to the chairman of the 
Subcommittee on National Security and Foreign Affairs, Mr. 
Tierney of Massachusetts.
    Mr. Tierney. Thank you very much, Mr. Chairman.
    As you are well aware, the Subcommittee on National 
Security and Foreign Affairs continues to focus extensively on 
wasteful defense programs. I can't underscore enough the 
importance of oversight of programs that just don't seem to 
measure up to our expectations even though we continue to throw 
money at them.
    Annually, Congress gets a report on the health of the 
Department of Defense's major weapons acquisitions portfolio 
from the Government Accountability Office; and frankly, with 
$300 billion in cost growth, that portfolio is anything but 
healthy. Swine flu is not the only epidemic around here.
    Defense cost overruns have waylaid budgetary flexibility at 
a time when we face economic hardship at home and significant 
challenges abroad. It is time to take a hard look at programs 
that have a history of procurement challenges and see where 
improvements, if any, have been made to those programs to 
ensure a better return on taxpayer investment. If problems 
continue, then it may be time to reconsider more drastic action 
on the part of Congress.
    Today, we have the case of the V-22, a program with quite a 
storied procurement history, involving almost every type of 
challenge imaginable, resulting in cost overruns compounded 
over nearly a quarter century. The aircraft was intended as a 
more capable replacement for an existing helicopter; however, 
in its report the GAO expressed concerns about the ability of 
the V-22 to perform a full range of missions that these 
helicopters could, including operating in harsh climates.
    Now, the Department of Defense is going to procure fewer 
than half of the originally planned 1,000 V-22s. How is that an 
original plan calling for 1,000 of them that is now going to be 
fulfilled by fewer than half of that number with fully less-
capable aircraft?
    What is equally concerning is that amongst this error-laden 
procurement process for the V-22, the program has been allowed 
to survive without proper scrutiny for such a long time because 
political decisions have trumped technical and budgetary 
realities. The elimination of such a program or even reducing 
orders for it can have difficult consequences on employment in 
some Members' districts. It is not a new strategy for large 
contractors to devise and follow a strategy of spreading the 
work over several facilities and subcontractors encompassing as 
many States and districts as possible in order to ensure 
protection of their profits. This is a legitimate and serious 
matter for all those rightfully concerned about our economy and 
our work force.
    Still, it would seem that a better course would be to 
develop a policy for keeping those people at work in burgeoning 
innovative industries and developing systems that help achieve 
our national security priorities, but that don't become 
antiquated before completion and that do so within planned 
budgets and planned schedules.
    The alternative of continuing failed programs as jobs 
programs that are rife with waste or abuse of the procurement 
system and, in many instances, fail to produce the needed 
weapons systems to protect those who protect us is not the 
wisest course. In most instances, such a program probably would 
not be the most efficient and cost-effective jobs program at 
any rate.
    As we look at this out-of-control issue with defense 
contracts, we ought also to look at our policies for protecting 
the financial security and employment prospects of those to be 
affected by cuts to wasteful programs. We owe good workers 
that, given Congress and the administration's complicity in 
allowing such a problematic condition to develop.
    Thank you for your time, Mr. Chairman.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much.
    Any other Members seeking recognition?
    The gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
associate myself with all the comments that have been made here 
this afternoon. I want to thank you and the ranking member for 
holding this hearing.
    One of the things I think about as I sit here, Mr. 
Chairman, is a matter that we are dealing with in my role as 
chairman on the Subcommittee on Coast Guard and Maritime 
matters in the Transportation Committee, and that is our 
deepwater project. This reminds me so much of that. It is 
incredible, and we have been straightening that out; but we 
started, Mr. Chairman, with three things that I said to my 
committee, and I want to say that to these wonderful gentlemen 
here this afternoon.
    First, we must get what we bargain for, period. We must get 
what we bargain for. You don't buy a lawnmower that doesn't cut 
grass. It makes no sense.
    No. 2, I said to my subcommittee, whatever we buy for the 
military, it must do no harm to them. We are out there, our 
young people--I also serve on the board of the Naval Academy, 
and I see a lot of our young people go into the Marines and do 
wonderful things. But the idea that we might be buying 
equipment with the American people's money that could actually 
do harm to those folks makes no sense whatsoever.
    And, three, I said we must make sure that whatever 
equipment we buy, that it is the equipment that they need to 
carry out their mission. End of game. That is it. If we can do 
those three things, then we have done a lot.
    Sadly, this Osprey appears to have failed all three of 
them--to fail all three of them, then the question becomes, Mr. 
Chairman--which I am interested to hear today--how did we get 
to this point? I think Mr. Tierney was very clear, and I think 
he made a good statement when he said a lot of times this is 
based on politics. And I believe that is quite true.
    And also, the other piece is, politics to what extent? To 
the extent of a plane costing this kind of money, unable to do 
what it is supposed to do? Harming our people? We are not 
getting what we bargained for.
    And then you have to ask the question--the people who are 
in charge, our acquisitions people, the people who are 
responsible--is there incompetence? Are we stuck in a culture 
of mediocrity? Is there no empathy for our military?
    These are the questions that have to be raised, and I hope 
that they are answered. And, Mr. Chairman, I look forward to 
hearing our witnesses. I thank you.
    With that, I yield back.
    Chairman Towns. I now yield to the gentleman from Virginia.
    Mr. Connolly. I thank the chairman. And I want to thank 
you, Chairman Towns, for convening this important hearing.
    This committee has devoted substantial resources to 
investigating contracting practices, and appropriately so. With 
the dramatic rise in volume and value of contracts, we must 
enhance our management and oversight capacity so we are 
maximizing return for the taxpayer.
    In previous hearings, this committee has discussed the 
shortage of acquisition personnel, specifically in the 
Department of Defense. During the Bush administration, the 
value of contracts doubled with virtually no significant 
increase in procurement personnel. At a Smart Contracting 
Caucus meeting just this past week, members of this committee 
discussed how we need to increase the capacity as well as the 
number of acquisition personnel.
    As this committee's work has demonstrated, our acquisition 
challenges are real. With these systemic challenges, it is not 
surprising that we have not resolved problems exemplified by 
the V-22 Osprey. By most indications, this would seem to be a 
very expensive piece of equipment that has not performed as 
promised. Despite its failure to perform, Congress has spent 
more money on it, even as it becomes apparent it will never 
perform as promised.
    The Government Accountability Office has noted that the V-
22 suffers from an unreliable supply chain and a frequent 
shortage of parts. We should not need the GAO to identify this 
problem. If the Department of Defense does not have the 
capacity to identify such problems themselves, then we need to 
determine how to ensure that it can in the future.
    Similarly, we should not need the GAO to identify problems 
with continual and unforeseen increases in cost. Our 
acquisition personnel need to be equipped and need to be there 
to be able to preempt this kind of problem in the first place.
    Mr. Chairman, we have chosen a very powerful example to 
demonstrate the need to reform our acquisition process in the 
Federal Government. I hope that we can use the lessons from the 
V-22 to identify steps that we can take to avoid repeating 
these mistakes in the future, through enhancing the capacity of 
our acquisition systems and personnel.
    And I thank the chairman.
    Chairman Towns. Thank you very much.
    At this time we would like to swear in all our witnesses. 
Would you please stand and raise your right hands.
    [Witnesses sworn.]
    Chairman Towns. Let the record reflect that all the 
witnesses answered in the affirmative. You may be seated.
    Let me begin by giving some background on our various 
witnesses.
    Mr. Mike Sullivan is the Director of Acquisition and 
Sourcing Management at the Government Accountability Office, 
who will testify about GAO's report entitled, ``Assessments 
Needed to Address V-22 Aircraft Operational and Cost Concerns 
to Define Future Investments,'' which is being released today, 
and identifies operational suitability plus challenges 
concerning the V-22 Osprey.
    Welcome.
    Mr. Dakota L. Wood is a senior fellow at the Center for 
Strategic and Budgetary Assessments, an independent, 
nonpartisan policy researcher, who will testify about the 
CSBA's report, ``Strategy for the Long Haul, the U.S. Marine 
Corps: Fleet Marine Forces for the 21st Century.''
    Welcome.
    Lieutenant General George Trautman is the Deputy Commandant 
for Aviation for the U.S. Marine Corps. The General will 
testify about operational and cost issues regarding the V-22 
and the current and future use of the aircraft.
    Welcome.
    Colonel Karsten Heckl is a Marine Corps pilot and the 
commander of a V-22 squadron. He will discuss his experience 
flying a V-22. Welcome.
    Dr. A.R. Rivolo is a retired Air Force pilot who flew 
combat operations during the Vietnam War, an aviation expert 
who worked on operational testing and evaluation of the V-22 
for the Institute for Defense Analyses, which provides direct 
analysis and support to the Office of the Secretary of Defense, 
Director of Operational Tests and Evaluations. He will discuss 
inherent safety issues regarding the V-22 and operation 
limitations.
    Welcome.
    I will ask the witnesses to summarize their testimony in 5 
minutes. The yellow light means you have a minute left, and of 
course, the red light means stop. Then, we will have time to 
raise some questions and look forward to your answers.
    So, Mr. Sullivan, why don't we start with you?

STATEMENTS OF MICHAEL J. SULLIVAN, DIRECTOR OF ACQUISITION AND 
    SOURCING MANAGEMENT, ACCOMPANIED BY JERRY CLARK, SENIOR 
  ANALYST, GOVERNMENT ACCOUNTABILITY OFFICE; DAKOTA L. WOOD, 
SENIOR FELLOW, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS; 
 LIEUTENANT GENERAL GEORGE J. TRAUTMAN III, DEPUTY COMMANDANT 
FOR AVIATION, ACCOMPANIED BY LIEUTENANT COLONEL KARSTEN HECKL, 
COMMANDER, MARINE MEDIUM TILTROTOR SQUADRON 162 (VMM-162), U.S. 
   MARINE CORPS; AND DR. ARTHUR REX RIVOLO, U.S.A.F. (Ret.)/
                        AVIATION EXPERT

                STATEMENT OF MICHAEL J. SULLIVAN

    Mr. Sullivan. Thank you, Mr. Chairman. Before I begin, let 
me just for the record state that Mr. Jerry Clark is up here. 
He is a Senior Analyst with the GAO, who headed up the work on 
this specific assignment and has significant institutional 
memory and knowledge on the V-22. He is here to help with 
answering questions.
    Mr. Chairman, Congressman Issa, members of the committee, I 
am pleased to be here today to discuss the status of the V-22. 
I would like to make some brief points in my opening statement, 
and ask that my written statement be submitted for the record.
    Chairman Towns. Without objection.
    Mr. Sullivan. We recently completed a review of the MV-22's 
operations in Iraq, recent testing and training results, and 
the program's past, current, and future costs.
    First, with regard to operations in Iraq, we found that the 
MV-22 successfully completed all of the missions it was 
assigned in low-threat operations and used its enhanced speed 
and range effectively to deliver personnel and cargo faster and 
farther than legacy helicopters.
    Battlefield commanders indicated that they need more 
experience with the aircraft to better understand the limits of 
its role in some of the medium-lift missions because its speed 
cannot always be exploited and these missions may be better 
performed by legacy helicopters. The aircraft also had 
availability and reliability challenges in Iraq, as you had 
alluded to, Mr. Chairman.
    While the acquired availability rate is 82 percent, the 12 
aircraft with the three squadrons in Iraq were able on average 
68, 61, and 57 percent of the time. In comparison, legacy 
helicopters were available about 85 percent of the time or 
greater, on average.
    Parts reliability was a major cause of the V-22's 
availability. Specifically, we found that 13 parts were in very 
high demand because they only lasted on average less than 30 
percent of their expected life, forcing cannibalization of 
other V-22s and even from the production line in the United 
States. V-22 engines also had some problems; expected to last 
500 to 700 hours, they lasted less than 400 hours in Iraq.
    Second, ongoing operational tasks and training have 
identified other challenges to the V-22's ability to conduct 
operations in high-threat environments, also while transporting 
personnel and cargo, operating onboard ships and operating in 
extreme environments. The program continues to work these 
challenges as it upgrades the aircraft, and will have three 
different component upgrade; however, this will be difficult 
since some of them arise from the inherent design of the V-22.
    Third, the V-22 cost estimates have increased significantly 
from original baselines. Development cost has increased from 
$4.2 billion to $12.7 billion, over 200 percent. Procurement 
cost has increased about 24 percent, from $34.4 billion to 
$42.6 billion, even as the number of V-22s to be procured was 
reduced from over 900 to less than 500. It is also clear that 
operation and support cost through the V-22's life cycle will 
be much higher than originally anticipated.
    Moving forward, the program plans to spend nearly $25 
billion to buy 282 additional V-22s, and the cost to operate 
and support the aircraft through its life cycle is now 
estimated at about $75 billion.
    Given these figures and the availability challenges we have 
discussed, we believe this is a good time for the Department to 
stop and once more consider the proper mix of transport 
capabilities as it moves into the future. This is why we 
recommended in our report that the Secretary of Defense perform 
a new alternatives analysis to clarify the V-22's role in 
transport operations, and require the Marine Corps to 
prioritize necessary improvements to the V-22 to improve its 
suitability and operational costs.
    Thank you for your time, Mr. Chairman. I will answer any 
questions as they may come.
    Chairman Towns. Thank you very much, Mr. Sullivan.
    [The prepared statement of Mr. Sullivan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Towns. Mr. Wood.

                  STATEMENT OF DAKOTA L. WOOD

    Mr. Wood. Thank you, Mr. Chairman, Congressman Issa, and 
distinguished members of the committee. It is my personal honor 
to appear before you today to discuss the MV-22 Osprey.
    I have been asked to elaborate on various issues related to 
the Osprey originally outlined in the paper that you have 
already mentioned. The point of the larger project was to 
highlight a range of defense issues to be addressed and 
considered during the 2009 Quadrennial Defense Review.
    This particular monograph of the Marine Corps examined the 
readiness of the service to do its part in meeting a set of 
emerging challenges, namely, the rise of large, hostile powers, 
a greatly proliferated world, and Islamist radicalized 
elements. There were also the ``meat-and-potatoes'' missions 
typically associated with Marine Corps deployments, such as 
noncombatant evacuation operations, mandatory assistance and 
disaster relief missions, and other various security 
cooperation initiatives that focused on working with other 
countries.
    Within the paper, we describe the current state of the 
Marine Corps, discuss what the Corps must be able to accomplish 
in meeting these burgeoning challenges successfully, and 
briefly assess the service's program of record and related 
developments within the service that would pertain to or be 
impacted by these challenges and operational demands.
    With specific reference to the MV-22 Osprey, we question 
the current Marine Corps plan to replace all of its medium-lift 
helicopters with the MV-22, and suggest that the Corps revisit 
this plan to see whether a mixed fleet of MV-22s and 
helicopters might be better.
    During the Ospreys long period of development, some 25 
years or more, changes in the operational and threat 
environments, increasing budgetary pressures, and the various 
implications arising from the service's own strategic and 
operational concepts suggest that a mixed fleet would provide 
more options and increased flexibility for the services at less 
cost than a fleet composed only of MV-22s.
    As has already been mentioned, the Marine Corps is planning 
to acquire 345 of these aircraft at a total cost of $42 
billion, or roughly $120 million each. Over the years, the 
aircraft has been the subject of controversy arising from 
engineering challenges and related developmental delays, some 
highly publicized crashes, and many funding debates; and 
certainly has strong supporters and equally passionate critics, 
both sides claiming that it is either better or worse than 
conventional helicopter alternatives.
    Those favoring the program cited speed, range, and altitude 
advantages over helicopters, characteristics that make it 
possible for Marine Corps forces to execute operations from 
increased distances. Those against the program cite its 
troubled developmental history and its high cost relative to 
helicopters, and argue that less-expensive helicopters can just 
as effectively support ship-to-shore movements, amphibious 
landing operations, and various amphibious assault missions 
without having to coordinate with aircraft of lesser 
capability. In other words, escort aircraft can't keep pace 
with the MV-22.
    The argument between advocates and critics of the Osprey 
appears to rest on the fundamental question: Does the Marine 
Corps' commitment to field the MV-22s sole medium-lift 
helicopter-like capability help or hinder its ability to 
perform anticipated missions at an acceptable cost, both in 
dollars and overall effectiveness, in an operational 
environment? Or should the Corps pursue a much less-expensive 
path that gives it the ability to effectively execute the 
missions it will most likely encounter, even if this means it 
would not have the ability to conduct missions at extreme range 
in as timely a manner? Of course, not having the more advanced 
capability provided by the MV-22 precludes undertaking missions 
that would require it.
    Mr. Chairman, I had planned on 5 minutes. I can jump right 
to the end and submit the rest of my comments for the record.
    Chairman Towns. Without objection.
    Mr. Wood. In the end, the issue of the MV-22's value must 
be viewed within the context of the often competing demands and 
desired operational attributes, the nature of expected 
operational threat environments, and our experiences of how our 
forces are actually employed to achieve their objectives. 
Achieving such a balance isn't easy, and it inevitably requires 
compromises that would properly and carefully weigh the costs 
and benefits of various alternatives.
    The Osprey can certainly enable the Marine Corps to perform 
a variety of missions far more effectively than has been 
possible in the past and undertake missions it would not 
otherwise be able to perform. But this capability also comes at 
a steep price both financially and in terms of the opportunity 
costs of absorbing a major slice of the Corps' modernization 
budget that may starve other badly needed modernization 
programs.
    Mr. Chairman, with these issues serving as points for 
further discussion, I would be happy to respond to any 
questions this committee might have.
    Chairman Towns. Thank you very much for your testimony.
    [The prepared statement of Mr. Wood follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Towns. General Trautman, first of all, let me 
thank you for your many years of service.
    General Trautman.

     STATEMENT OF LIEUTENANT GENERAL GEORGE J. TRAUTMAN III

    General Trautman. Thank you, Mr. Chairman.
    Mr. Chairman, Congressman Issa, distinguished Members, as 
the current leader of Marine Corps Aviation, it is a privilege 
for me to appear before you today to discuss the MV-22 Osprey 
tiltrotor aircraft, its performance in Iraq, and our plans for 
leveraging this capability in the future for the benefit of the 
men and women who ably serve our Corps.
    Last month, the Commandant outlined before this Congress 
his vision of the Marine Corps of 2025. That vision portrays a 
fast, lethal, expeditionary force that is ready for the 
uncertainties of future combat operations, yet has the staying 
power of engagement in the most austere conditions imaginable. 
At the center of this vision is the MV-22 Osprey tiltrotor 
aircraft.
    As always, your Marines are ready for full-scale theater 
war, we are ready for irregular warfare and insurgency, and we 
are ready for everything in between.
    Today, we have a foot in two different streams. We are 
drawing down our forces in Iraq while at the same time we are 
building up forces in Afghanistan. This past year, your Marine 
Corps flew over 330,000 flight hours, with over 40,000 hours of 
these hours in combat zones in Iraq, Afghanistan, and the Horn 
of Africa. With last month's return of VMM-266 and its 12 
Ospreys on board USS Wasp, Osprey squadrons finished their 
third consecutive 6-month deployment to Iraq. We will now turn 
the Osprey toward sustained operations at sea, and later this 
year we will deploy to Afghanistan and the challenges that 
await us there.
    The Marine Corps is not interested in airplanes for their 
own sake. We are interested in the capabilities that airplanes 
provide to the aviation combat element in support of the Joint 
Force. With that in mind, I want to give you an example of what 
this aircraft can do.
    In 1988, one of our former Commandants said, ``If I am a 
commander operating off the coast of North Carolina, I want 
every bad guy from New York to Miami to be nervous.'' What he 
meant by this statement was, he wanted to find a way to keep an 
enemy force off balance by giving our Marines the kind of 
asymmetrical advantage the Osprey brings to the battlefield.
    Simply put, the V-22 has transformed the way we are 
fighting in a manner akin to the introduction of the helicopter 
in the middle of the last century. We can now project combat-
loaded Marines, soldiers, or Special Operators from a sea base 
or any forward site deep into the battlespace at the speed of a 
KC-130, and we can do it at altitudes above the ground threat 
that has tragically brought down so many conventional 
helicopters in Iraq, Afghanistan, and elsewhere. And then we 
can land that payload anywhere it is needed, just like a 
helicopter. With its speed, range, and survivability, the MV-22 
is truly a game changer.
    For the past 20 months, the Osprey has been in the fight. 
Since its introduction to the Iraq theater of war in October 
2007, the Osprey has flown nearly 10,000 hours in combat, 
lifted over 45,000 passengers, and carried more than 2.2 
million pounds of cargo, while completing every assignment 
imaginable. And it has done so flying faster, farther, and at 
more survivable flight profiles than any other assault support 
aircraft in the history of military operations.
    As we move into Afghanistan later this year and we are 
required to cover a larger country than Iraq with Marines 
spread out even further, cutoff from one another and on foot in 
the equivalent of the Rocky Mountains, this aircraft will not 
be just a nice, new capability; it will be a crucial, critical 
necessity that saves lives and wins battles.
    I have sent my staff around the world to speak with 
infantry battalion and platoon commanders, and their message is 
remarkably similar to that of our pilots: Get more of these 
assets into the fight.
    Our logisticians, infantry officers, and our Marines have 
now seen what the Osprey can do. They have flown in the back of 
it, they have run down its ramp into landing zones in combat. 
They know that this capability means that we can move three 
times as many Marines five times farther and twice as fast as 
they could move those same Marines even in the most advanced 
conventional helicopters.
    They know that as they transit to the objective, they are 
flying as high as 13,000 feet, out of the range of rifle fire, 
heavy machine gun fire, rocket-propelled grenades, and man-
portable air-defense systems that are the weapons of choice for 
both irregular insurgents and the conventional soldiers who 
intend to do us harm. The infantrymen in the back of the 
aircraft, those 19-year-old riflemen whose well-being is the 
focus of the Commandant's vision and mine, are getting where 
they need to go in half the time, and the majority of the 
flight takes place in an altitude sanctuary well above the 
prevalent ground threat.
    Like other types of aircraft in the early operational 
phases of their life cycle, the V-22 has experienced lower than 
desired reliability of some components. However, these 
challenges are not unique to this program. Aircraft like the F-
14, 53 Echo, H-60, and F-18 have all had similar problems at 
this stage of their developmental process. The difference 
between the desired and observed rates is typically the result 
that spares our purchase for a new program based upon predicted 
engineering analysis. And when that analysis is informed by 
historical knowledge, improvement in availability and 
reliability occurs.
    Mr. Chairman, thank you for this opportunity to speak with 
you today. Colonel Heckl is with me. He is one of our combat 
veteran V-22 squadron commanders.
    I look forward to answering any questions that you may 
have. I have provided a written statement, and I request that 
it be entered into the record.
    Chairman Towns. Without objection, the entire statement 
will be included in the record.
    [The prepared statement of General Trautman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Towns. Colonel Heckl.

         STATEMENT OF LIEUTENANT COLONEL KARSTEN HECKL

    Colonel Heckl. Sir, good afternoon. I am just here to 
answer questions. I have no opening statement, sir.
    Chairman Towns. Thank you.
    [The prepared statement of Colonel Heckl follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Towns. Dr. Rivolo.

                 STATEMENT OF ARTHUR REX RIVOLO

    Mr. Rivolo. First, let me just say that I am not 
representing any organization. I have terminated my 
relationship with the Institute for Defense Analyses. I am here 
strictly as a private citizen.
    Mr. Chairman, members of the committee, good afternoon. The 
V-22, conceived as a transformative technology 30 years ago, 
promised extensive new capabilities. Today, the aircraft, 30 
years later, is operational with both the U.S. Marine Corps and 
the U.S. Air Force, but the promised capabilities have failed 
to materialize.
    This much-awaited transformative aircraft has, in my 
opinion, turned out to be a disappointment, falling well short 
of its design goals. Additionally, two technical issues, order 
rotation and maneuverability in helicopter mode, make the V-22 
problematic in a combat environment. I will address these 
issues one by one.
    The design shortfall and load-carrying capacity has 
resulted in a compromise in the configuration and the 
construction of the V-22. As a result, the aircraft fails to 
meet the requirements for the critical ``50 nautical mile, 
10,000 external load'' mission if all the safety operational 
requirements are imposed. In operations at high-density 
altitude, both the MV and the CV-22 have little or no 
capability above 8,000 feet density altitude, and such density 
altitudes are common and tactically relevant in the Afghanistan 
theater of operations.
    In many operational situations today, the Marine Corps 
would have to call on their few CH-53s or on the U.S. Army's 
CH-47s to meet mission requirements. Similarly, the CV-22 
called upon to conduct noncombat evacuation operation of an 
embassy in Kabul on a hot day would have no more than about a 
60-nautical-mile range, once lifting out of the compound with a 
full complement of 24 evacuees. Any mitigation alternatives 
would include much-higher-risk operational options or the use 
of H-53s.
    The inability of the V-22 to safely autorotate, now firmly 
established, has serious implications. The V-22 would fail to 
meet basic air worthiness directives of the FAA if it were a 
civilian transport.
    Despite this, the U.S. Marine Corps leadership has shown 
little or no concern over this issue and has no problem 
requiring young men and women to ride as passengers in the V-22 
under combat operations. I believe that this is reprehensible. 
It is a stand that the Marine Corps leadership should never 
have taken. And, by passive consent, the acquisition executives 
of the Department of Defense and the Congress are essentially 
in that same category.
    The V-22 is susceptible in a combat environment to 
autorotation because of its design and because of its 
vulnerabilities. The conscious disregard of this substantial 
and unjustifiable risk qualifies as reckless behavior, in my 
opinion in the legal sense, on the part of these entities. The 
significant lack of maneuverability in turning and change in 
altitudes while in helicopter or conversion mode makes the V-22 
susceptible to hostile fire while on approach to landing.
    All operational testing of V-22 conducted to date has been 
scripted; that is, conducted without any opposing so-called 
``red forces'' to add the element of surprise--essentially, a 
nonthreat environment. As a result, no data on the ability of 
V-22 to evade hostile fire while on approach to a landing zone 
are available.
    Proponents argue that V-22 has been combat proven, given 
its operational experience in Iraq. This, I believe, is either 
delusional or disingenuous. The V-22 mission in Iraq was 
largely one of combat circulation. It is a euphemism for 
logistical support of carrying passengers and cargo from base 
to base in bus route fashion. Combat assault, the mission for 
which the V-22 was designed, remains unproven under realistic 
conditions.
    Despite the rhetoric heard over the past 5 years about how 
V-22 is the ideally suited aircraft for combat operations in 
Afghanistan, the aircraft has not been deployed into that 
theater to date. One could speculate on the reasons for this, 
and I will not at this point.
    Thank you for giving me the opportunity to testify. I am 
prepared to answer any questions. And, if I could, may I have 
my written testimony placed into the record? Thank you.
    Chairman Towns. Without objection, your written statement 
will be included in the record.
    [The prepared statement of Mr. Rivolo follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Towns. Let me thank all of you for your testimony. 
And let me begin with you, General Trautman.
    I understand there are no Ospreys currently in Iraq. If 
this is an aircraft that is so valuable, why isn't it being 
used?
    General Trautman. Sir, we had Ospreys in Iraq for three 
successive deployments. As you know, at this point, Marine 
Corps operations in Iraq are starting to draw down. The 
situation in Al Anbar since October 2007 has been significantly 
changed, and the Marine Corps is turning its attention to focus 
on Afghanistan.
    But the small number of squadrons that we have, we have 
only been able to have one squadron deployed at a time up until 
this point. By the fall, we will be able to have two squadrons 
deployed from North Carolina, and we look forward to having one 
squadron onboard ship and one squadron in Afghanistan by the 
fall.
    Chairman Towns. Is it the troops or is it the Osprey that 
has the problem? You indicated you pulled them out, but the 
point is, is it the problem with the troops or problems with 
the Osprey?
    General Trautman. No, sir. It is a success of the mission. 
The Al Anbar battlespace has successfully been transformed by 
the actions of multinational force west over the past 7 years. 
The Marine Corps forces in Al Anbar are drawing down at this 
point and we are reducing our force structure there 
commensurately, so we are bringing out AV-8s, we are bringing 
out attack helicopters, we are bringing out heavy-lift 
helicopters, and we brought out the V-22 Osprey.
    So there is no problem. This is a success story, Mr. 
Chairman.
    Chairman Towns. In your written testimony, you state that 
the Marine Corps has accepted delivery of 91 Ospreys. On June 
2, 2009, your boss, the Commandant of the Marine Corps, told 
the House Appropriations Subcommittee on Defense that the 
Marines have 90 operational aircraft. However, we know that 
many of the Ospreys are not ready for combat. We also know that 
the Marines have had to cannibalize some of those Ospreys for 
spare parts.
    Isn't it true that only 47 Ospreys are even theoretically 
combat deployable?
    General Trautman. Mr. Chairman, we have a training squadron 
composed of 20 Ospreys that we would not deploy. This is a 
place where new pilots are shown how to fly the Osprey. We have 
four Ospreys in HX-21. This is a test squadron. We have five 
Ospreys in VMX-22, another operational test squadron. And so we 
have stood up a total of four squadrons, and we are in the 
process of standing up our fifth as airplanes are delivered.
    Chairman Towns. So the answer is ``yes?''
    General Trautman. I was trying to describe the situation 
with regard to the Ospreys that are in the fleet. I am not sure 
what question the chairman is----
    Chairman Towns. Let me move on then. I think it was ``yes'' 
you answered.
    Isn't it also true that of that number, on a good day fewer 
than half of those are ready for combat?
    General Trautman. No, sir. Typically, we have established 
about 63 percent operational readiness within the fleet by one 
measure, which measures every second of a 24-hour period.
    Another measure, which is what we call ``ready basic 
aircraft,'' which is the number of aircraft that are ready for 
tasking on a day when the air tasking order begins, we are 
actually in the low 70's--which is not acceptable, but it is 
not nearly as you describe, sir.
    Chairman Towns. Let me go at this another way.
    If the Commander in Chief, President Obama, asks the 
Marines to deploy today for a new special combat mission at a 
high-threat environment, how many Ospreys would be fully 
mission capable and ready to deploy to combat?
    I am looking for the answer here. Go ahead.
    General Trautman. In the mid-40's, sir. There are four 
squadrons of 12, so four times 12 is the number, sir.
    Chairman Towns. I didn't hear you.
    General Trautman. We have four operational squadrons of 
between 10 and 12 airplanes. So it is in the mid-40's. 
Approximately 45, 46, 47.
    Chairman Towns. Let me switch to you, Mr. Sullivan.
    Isn't it true that the Osprey is incapable of performing in 
the way it was originally intended?
    Mr. Sullivan.
    Mr. Sullivan. Well, we looked at how it performed in Iraq, 
first of all. So it is true that it was not able to complete 
the full envelope, the performance envelope that it was 
intended to perform in. However, it also wasn't asked to do all 
that in Iraq, mostly because there are things it can't do yet 
that they know it can't do.
    Mr. Cummings. Let me come back to you, General. Thank you, 
Mr. Sullivan.
    If it will not perform in hot areas, it will not perform in 
cold areas, what do you need it for?
    General Trautman. Mr. Chairman, perhaps I can have Colonel 
Heckl. He commanded a squadron through the hottest environment 
in the Middle East that I have ever encountered. He could 
probably talk to that question.
    Colonel Heckl. Sir, I deployed my unit over there in March 
2008 and we departed in October 2008. Some of what I have heard 
here today--I didn't have any prepared statements, but what I 
have heard here is kind of disturbing. Some of this is just 
blatantly inaccurate.
    I don't agree with a single thing that Mr. Rivolo said.
    I was over there, sir. We had days every day over 120 
degrees. I don't know how much hotter anybody would want it to 
get. We had more dust storms. The wing, Third Marine Aircraft 
Wing, commanded by then-Brigadier General Alles, estimated they 
lost more than 10,000 flight hours due to weather, it was so 
severe. So it has operated in extreme heat. Extreme heat.
    The hostile fire thing, you know, I assume everyone here is 
aware that we classify zones based on color code--green, red, 
black, yellow zones. We flew into black zones. As a matter of 
fact, the squadron that I replaced flew Senator McCain into a 
black zone in the middle of the day. That is as high a threat 
as it gets.
    The maneuverability: This is an old discussion for Mr. 
Rivolo, proven years ago to be wrong. The demonstration is not 
scripted. And anybody that has flown into Baghdad International 
Airport under night vision goggles, knows how maneuverable the 
airplane is. All you have to do is do a whiskey transition over 
to Liberty Pad, and you know how maneuverable the airplane is. 
It is blatantly false.
    And last, the ability to operate--well, we already talked 
about the ability to operate in the heat. Again, I had the 
squadron over there for the entire summer, and we had 
temperatures well in excess of 120 degrees every single day.
    Chairman Towns. I think it is appropriate that I allow Dr. 
Rivolo to respond, because I think you did call his name.
    Dr. Rivolo.
    Mr. Rivolo. Everything the colonel said is correct. I mean, 
they did operate in 120-degree weather constantly in a pretty 
much sea-level environment.
    My criticism is that at high-density altitudes is when the 
problems will arise. And that is also having to do with 
maneuverability. The problems only exist under certain 
conditions, but they happen to be conditions that are 
tactically relevant certainly in Afghanistan. The aircraft 
performs brilliantly at sea level. No one doubts that.
    Chairman Towns. GAO, what did you find? Because there 
seemed to be some questions in terms of its ability to perform. 
I mean, did you find this as well?
    Mr. Sullivan. I might let Mr. Clark fill in where I have 
gaps.
    But I believe what we found is that it was--when it was 
over in Iraq with the three squadrons, it was for the most part 
limited to low-threat environment because of maneuverability 
problems or restrictions that they have that I believe they 
have in--even in the flight manuals themselves, right?
    And maybe Mr. Clark can fill in some of the gaps here.
    Mr. Clark. Mr. Chairman, when we did our work, we looked at 
the flight manual which is considered the NATOPS manual, and 
according to that manual, the aircraft is prohibited from 
conducting air combat maneuvering or defensive maneuvering 
issues. So if Mr. Rivolo is saying that is an essential element 
in terms of survivability, according to that manual it's 
something that the aircraft is, they're prohibited from doing.
    In terms of operating in the environments that we were 
talking about, we relied on the after-action reports that you, 
I believe, had asked for, and of course, we interviewed the 
unit that had deployed, the first unit that deployed and 
interviewed personnel from that unit. But those after-action 
reports of the first unit and of the unit, the third unit that 
was in Iraq, talk to issues that they had problems operating in 
the desert environment, talked to problems that the aircraft 
had in operating in terms of the heat. And I think the 
capability rates seem to reflect some of those problems if you 
looked at it on the months, in terms of the hotter months, 
would be a lower capability rates versus the cooler months. So 
there were those issues there that we did identify.
    Chairman Towns. My time has expired. I yield to the 
gentleman from California, the ranking member.
    Mr. Issa. Thank you, Mr. Chairman. And I share the 
committee's entire concern that we want our Marines to have the 
best assets for each and every mission. I would like to go 
through a couple of quick questions, and I hope you'll indulge 
me if I ask that they be as quick as possible. General 
Trautman, I understand that you're a Marine aviator, but isn't 
it true that the reputation of the C-5 is any time it lands it 
doesn't take off again for a long time? Just reputation, just 
something you may have heard over your years.
    General Trautman. Yes, sir.
    Mr. Issa. And isn't it incredibly a cost overrun aircraft 
and expensive to maintain; and isn't it true that it no longer 
does any mission that is unique to the C-5, at least in the 
unclassified world?
    General Trautman. I'm not qualified to answer that, sir.
    Mr. Issa. But it's a big airplane that only carries one 
tank, if you remember that part of it.
    General Trautman. Yes, sir.
    Mr. Issa. It happens. Now the AV-8B, the B implying that it 
ain't the first, it killed a lot of Marines and some British 
aviators before they got it right, isn't that true?
    General Trautman. Yes, sir.
    Mr. Issa. And isn't it true that as far as I know, we 
haven't had a single mission, as unique an aircraft as it is, 
that only that aircraft could do in a combat environment 
leading to a successful battle, in spite of the fact they 
worked the bugs, and it's able to do a mission that no other 
jet can do.
    General Trautman. That's right. It's performing 
exceptionally well in Afghanistan today.
    Mr. Issa. OK. So we can have a really great aircraft that 
meets its requirement, and we may not have a war exactly suited 
to that requirement at the time that it's in the field; isn't 
that true?
    General Trautman. The Marine Corps is worldwide deployable 
and has to be ready across the full range of military 
operational requirements.
    Mr. Issa. I'll ask you the one softball. If, in 1979, when 
we were trying to rescue our people in Tehran that had been 
taken hostage, in violation of all international law, what 
would have been different it that mission if the Osprey had 
been the primary aircraft?
    General Trautman. It would have been a successful mission 
and we probably wouldn't be where we are with Iran today, Mr. 
Issa.
    Mr. Issa. Because it could have flown, self-deployed, flown 
nonstop and, in fact, been able to hit the target without the 
cluster that occurred in the desert.
    General Trautman. We would have gone directly to the 
stadium. Delta Force would have come out in the stadium and 
carried out the mission as described. It wouldn't have been a 
2- to 3-day evolution of landing in the desert and having the 
situation that occurred.
    Mr. Issa. Colonel Heckl, you've flown other rotor wing 
aircraft; is that correct?
    Colonel Heckl. Yes, sir. My background, about 3,000 hours 
in CH-46s my whole career. And I flew in OIF 1 back in 2003 
when we went into Iraq in the beginning, I was a 46 pilot.
    Mr. Issa. Well, I'm not nearly as qualified a pilot as you 
are, but isn't it true that all aircraft lose lift at high 
density altitude, basically a hot day, hot, humid day, the 
higher you are and the hotter it is, the more likely you are in 
a fixed wing to need a longer runway or a rotor wing to simply 
have to carry less on take off?
    Colonel Heckl. Absolutely, sir. And that's one reason in 
Operation Tora Bora in the fall of 2001, 46s weren't even taken 
ashore.
    Mr. Issa. Because in fact----
    Colonel Heckl. It could not perform.
    Mr. Issa. The high altitude there is a challenge to almost 
any helicopter made in the world.
    Colonel Heckl. To every helicopter, sir.
    Mr. Issa. OK. And in your estimation, having flown the 
Osprey, with further development over time, can we, in fact, 
increase the at-altitude lift-off capability, just based on the 
record of rotor wings?
    Colonel Heckl. There's no doubt about it, sir. Absolutely.
    Mr. Issa. So, in fact, even though a little bit like the 
AV-8 and a little bit like most of our other helicopters, 
generation one usually don't do as well. I'm a guy who was one 
of a four pack in a Huey every time it took off on a hot day at 
Ft. Riley. And by the way, that's close to sea level, but that 
was about all we could carry in a UH 1.
    Colonel Heckl. Yes, sir. And like you said, an AV-8B, when 
I left the CH-46, we were on CH-46 Echo.
    Mr. Issa. OK. I'm going to ask you the tougher questions 
now, and I am concentrating to a great extent on you two in 
uniform, partially because some of the rest of you are more 
available to me all the time. Isn't it true though that in 
fact, many of the missions that we're doing in Iraq and 
Afghanistan we, in fact, can do with other rotor wing aircraft?
    Colonel Heckl. Sir, I'll tell you, that you could do with 
other aircraft?
    Mr. Issa. Yeah. Many of them.
    Colonel Heckl. Yes.
    Mr. Issa. So when the GAO talks about perhaps a smaller 
fleet or a mixed fleet, that is something this committee should 
look at tasking consideration of, just consideration of whether 
or not the mix is right.
    General.
    General Trautman. Well, yes, sir. And the Commandant does 
that routinely. Let me take you back 3 years when the decision 
was made to increase the size of the Marine Corps from 175,000 
to 202,000. We did a thorough analytical look at what the 
aviation combat element of the Marine Corps should look like at 
the larger size. We looked at the Osprey and we saw that it 
performed at four times as well as the CH-46. But we also saw 
that we needed additional assault support assets. So what we 
did is we decided to grow the size of our CH-53 fleet from six 
to nine active squadrons, and the size of our light attack 
helicopter fleet, which includes the UH 1 Yankee, a 
middleweight lifter that will round out the B 22 perfectly in 
the context of the aviation combat element. And we increased 
our HMLA from six to nine.
    Coming out of that deep dive, the Commandant and I are 
absolutely certain that we have it right today. But each and 
every year I publish, under the Commandant's name, an aviation 
plan, and we do retrospective thinking, introspective thinking, 
pardon me, about where we should go with our Marine Corps to 
provide the best force for the Joint Force Commander in an 
every changing world.
    Mr. Issa. In my opening statement I mentioned TASVAL back 
in the 1970's, and the recognition that at least at that time 
the systems aboard the A10 were not the best for killing tanks 
of the aviation assets we had in the field. There were changes 
made afterwards.
    Do you welcome a similar test of all of the fixed and rotor 
wing assets, periodically, by the military, by either joint or 
a particular branch, in order to determine whether or not the 
mix is right and the assets meet the requirement as offered in 
real instrumented type combat situations where we can 
computerize and oversee, if you will, whether pilots and assets 
do what they say they'll do?
    General Trautman. Sir, not only do we welcome it, we pursue 
it. Twice a year, the Marine Aviation Weapons and Tactics 
squadron based in Yuma, Arizona, performs a weapons and tactics 
instructor course, where we bring the most capable aviators in 
the Corps and other services, bring them together, do quite a 
bit of instrumented training and testing, and that's how we 
develop the ideas that enable us to go forward.
    Mr. Issa. Thank you. Thank you, Mr. Chairman.
    Chairman Towns. I now recognize the gentleman from 
Massachusetts.
    Mr. Tierney. Thank you, Mr. Chairman. Mr. Sullivan, 
according to your report, this V-22 is still having problems 
with unreliability on component parts?
    Mr. Sullivan. That's true, yes.
    Mr. Tierney. Can you explain that a little bit for us.
    Mr. Sullivan. What we've found over in Iraq was that, 
despite the fact that they had taken more than the usual 
complement of spare parts that they would usually take, they 
were running out of parts, having to cannibalize other V-22s. 
And when we looked at the parts specifically, we found that 
there were 13 critical parts that were just not lasting long at 
all. In fact, as I stated in my opening statement, about 30 
percent, they're getting about 30 percent of the usual time out 
of those. And in addition to that, the supply chain, the vendor 
supplying the parts, that's a very immature supply chain at 
that part, and they were having problems with that as well.
    Mr. Tierney. Thank you. So General Trautman and Colonel 
Heckl, you don't dispute that, do you?
    General Trautman. No, sir. I don't dispute that all. In 
fact, it's quite typical of other platforms that have reached 
about the 50,000 to 55,000 hour mark. The F14.
    Mr. Tierney. You already testified that you have low 
aircraft availability, lower than you would like and lower than 
would be estimated as ideal.
    General Trautman. Lower than ideal, yes, sir. That's right.
    Mr. Tierney. So we have a plane here that in 1986, when 
they estimated at what would be 2009 dollars, we were going to 
get 1,000 of them over 10 years at $37.7 million each. Now 
we're looking at some projections, we're going to get less than 
500 over 10 years, at about $93.4 million each, which is a 
pretty sizable thing. What caused that overrun, General?
    General Trautman. Well, sir, the actual non-recurring 
flyaway cost of the Block B MV-22 in fiscal year 2009 is $64 
million. Cost increases, yes, sir. The cost increases 
throughout the years have been somewhat troubling. Projections 
in the 1980's for this platform, as well as other platforms, as 
some of the Members have pointed out, have not come to 
fruition. But $64 million a copy is much less than things like 
a Super Hornet, which are in the mid 80's.
    Mr. Tierney. As my mother used to say, if everybody jumped 
off the Brooklyn Bridge, would you? That other programs had a 
problem, I don't think, diminishes the exact problem that we're 
dealing with on this one.
    Let me ask you, have any of the contractors been fined, or 
at least not given their bonus as a result of this?
    General Trautman. They haven't been fined, to my knowledge. 
There are incentive fees that have been either given or 
withheld throughout the years, and I'm not--I can get that for 
you in a follow-on.
    Mr. Tierney. Mr. Sullivan, do you have any information on 
that?
    Mr. Sullivan. I don't, but we'd be happy to look into that 
too.
    Mr. Tierney. I'd very much appreciate if you do that; 
whether somebody's being held responsible for this. This is a 
20--how many years program are we talking about here? 1986 we 
were going to get 1,000 at $37.7 million. We didn't have them 
in 1996, we didn't have them in 2006, we still don't have them 
today.
    Mr. Sullivan. Right.
    Mr. Tierney. So the V-22 Rolls Royce engines, well, one-
half to two-thirds of their expected life span is all that 
we're getting out of them. Yet General, I understand that the 
Marine Corps has contracted to buy even more of the same 
engine. Negotiated a new engine sustainment with Rolls Royce 
that includes numerous exclusions. So who made that decision?
    General Trautman. The decision is made by service 
acquisition executives, and I contribute to that.
    Mr. Tierney. It's not just one person; it's a whole bunch 
of them that make that kind of decision?
    General Trautman. No, the service acquisition executive in 
the Department of the Navy makes the ultimate decision.
    Mr. Tierney. Who would that have been that made that 
decision?
    General Trautman. Research development acquisition, 
Assistant Secretary of the Navy.
    Mr. Tierney. So they apparently think if you're getting 
half to two-thirds of the expected life span of an engine is 
something that they ought to reward with an additional 
contract.
    General Trautman. I believe it's a very wise decision with 
this performance-based logistics contract that we have with 
Rolls, the V-22 never goes without an engine. I wish I had a 
similar situation in other type model series.
    Mr. Tierney. Could you describe for me the exclusions that 
are made in that contract for the additional engines and what 
the reasons are for those exclusions.
    General Trautman. I'm not sure the contract has been 
negotiated. You're talking about the performance-based 
logistics contracts that are being negotiated now? The 
negotiations are not complete.
    Mr. Tierney. The sustainment contracts that they've been 
negotiating with Rolls Royce.
    General Trautman. One example would be if the engineer 
particle separator is not working adequately, I think that's 
excluded.
    As you said, we're negotiating this year, and we don't 
expect to finish negotiations until December timeframe.
    Mr. Tierney. Is it possible to have another supplier 
proceed an engine that would require significant design changes 
and thus, I suppose would cost more but at least might work 
better?
    General Trautman. At a significantly increased cost and 
detriment to the program, there's a possibility we could go in 
another direction if the performance-based logistics 
negotiations don't go the way we desire, that's something 
that's on the table, of course.
    Mr. Tierney. So, it just sounds to me, General, that we're 
talking about having a choice. We can either pay for 
underperforming engines, or start over again and pay even more 
for engines that are designed properly.
    General Trautman. Well, the engines are staying on about 
600 hours, which is typical of other similar airplanes 
operating in that austere, challenging environment.
    Mr. Tierney. Mr. Clark, is that the kind of response you're 
getting, 600 hours?
    Mr. Clark. Sir, when we looked at the data from the Iraq 
experience, it was not. It was less than 400. Now, again, I'm 
not sure if he's looking at the other aircraft not deployed.
    Mr. Tierney. Well, General, let's talk about deployed 
aircraft then. Are you disputing Mr. Clark's testimony that you 
get less than 600 hours?
    General Trautman. I'm not disputing. I'm saying that it's 
about 687, as I recall, fleetwide, which means--and in Iraq I 
think it's approaching 500 hours. We've instituted changes that 
have enabled us to get up to around the 500-hour mark.
    Mr. Tierney. You can talk faster than I can, General, but 
I'll slow you down a little bit. The question was, in Iraq, 
where the examination was done, they're not making even 500 
miles, never mind 600, right?
    General Trautman. Approaching 500 hours in Iraq, that's 
right.
    Mr. Tierney. All right. Mr. Sullivan, what do we need to 
do? What does the Department of Defense and Marine Corps need 
to do to get this program back on track, or is there anything 
they can do?
    Mr. Sullivan. You know, I think one of the problems with--
most of the problems with this program are probably, you know, 
it's been around a long time and has taken most of its hits. At 
this point, it's not meeting all of its requirements. But I 
would agree a little bit with what the General says is that 
it's still relatively new. They're still doing some operational 
testing on it. Some of these things are growing pains that it 
will grow out of. However, I think that there are some inherent 
design features on the V-22 that are going to keep it from 
being the most optimal choice that the Marines are thinking 
they're going to have, I guess is the best way to say that. 
They're having, you know, you're looking at, first of all 
they've taken a big hit on the unit cost. So there's already, 
it's going to cost a lot more than they thought to buy the 
remaining 280 aircraft.
    Chairman Towns. The gentleman's time has expired. I now 
yield 5 minutes to the gentleman from----
    Mr. Tierney. Can he finish his answer, Mr. Chairman?
    Chairman Towns. I thought he finished.
    Mr. Sullivan. I think what has to happen is, as we 
recommended, that they need to look at the proper role of the 
V-22 and a proper mix. There's a lot of things that the CH-46 
and the 53s can do as well as the V-22. And I think that we 
think that the mix should be looked at again.
    In addition, the Marines have to stay on top of these 
reliability issues. You know, there's obviously a problem with 
some of the specific parts on this, and the supply chain, and 
we recommended that they take a good study of that as well.
    Mr. Tierney. Thank you.
    Chairman Towns. And there'll be a second round. Gentleman 
from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman. General 
Trautman, I listened to your testimony very carefully. You 
know, we had asked the Marine Corps to compile a list of 
incidents and mishaps involving the MV-22 since the aircraft 
was approved for full rate reduction in 2005. However, we 
discovered that many of the incidents involving the V-22 since 
that time were not included in the report by the Marine Corps. 
And General, I heard you say all these wonderful things about 
this aircraft. Why did the Marine Corps fail to include all of 
these incidents in their report to the committee?
    General Trautman. Sir, I'm not sure what you're talking 
about. I have a June 15, 2009 information paper that was 
provided to the committee that, in my judgment, includes 
everything that has happened to the V-22 going back to 1992.
    Mr. Cummings. Now, when you presented that information, is 
that only dealing with damage to the aircraft or personnel or 
other mishaps included?
    General Trautman. All mishaps. Category C, B and A. All 
mishaps are included in the documentation we provided on June 
15th.
    Mr. Cummings. All right. And so do you consider the 
grounding of all your combat aircraft a minor incident?
    General Trautman. Grounding of aircraft is never a minor 
incident; of course not, sir.
    Mr. Cummings. And what about the forced landings in Iraq? 
Are those a part of the incidents that you would have there?
    General Trautman. Precautionary landings that take place, 
no, sir. If a precautionary landing takes place, that's 
actually a benefit associated with the Osprey in that a 
conservative pilot can land and determine what's going on in 
his airplane in a way that regular airplanes cannot. So no, it 
did not include precautionary landings, sir.
    Mr. Cummings. Well, our staff compared your report to the--
we did a search of the Osprey and found that there were many, 
many more mishaps than we had reports on. So I'm sure that's 
just--you know, perhaps you can clear that up for us.
    General Trautman. Yes, sir. We will clear that up for you, 
and I stand ready to do that with anybody at any time.
    Mr. Cummings. Thank you very much. As I sit here, I was 
just thinking, there's probably some things that you all agree 
on. But there's a cardinal question here, and that is, that Mr. 
Sullivan and his group have made some recommendations, and 
there's a question as to whether a country that is spending, is 
in deep economic trouble, can wait for, to work out all the 
kinks, when perhaps we could get something much more effective, 
even if it's a mix with the Osprey.
    And I think what is bothering me as I sit here, just 
looking at it from a very practical standpoint, I think we can 
get so hardened in our positions that it's hard for us to see 
anything else. And this is just from sitting up here and 
observing. And this airplane, this Osprey, obviously, has some 
major problems.
    And if I had an employee who only showed up 30 percent of 
the time, they could be the greatest employee in the world, but 
no job.
    If I had somebody who I had certain expectations of that 
they were going to work 600 hours so and so, over a certain 
period of time, and they don't show up, or they're not 
available, what good does it do me?
    And so I'm just trying to figure out, where does the 
defense of this airplane end and the beginning of getting what 
we bargained for, making sure our people are not harmed by the 
very things the taxpayers dollars are paying for, and getting 
our people, the equipment that they need?
    When does that defense of the plane end and we say to the 
manufacturer: manufacturer, we know that you're watching C-Span 
right now, and we know that there are people that need jobs. 
Why don't you just correct and do the things that we need to be 
done so that we can provide the very best for the men and women 
who I know you love?
    You've given your life for them, and I know you wouldn't 
just put somebody in a plane that perhaps would do them harm. I 
know you wouldn't.
    But when you hear the testimony, it sounds like we don't 
end the defense and begin to say to the people who are creating 
this, come on now. Guys, this is America. This is the greatest 
country in the world. We can produce a plane that can get 
around the things that you all talked about. Are we that far 
behind?
    Do you follow me, General?
    General Trautman. I do, sir. And I would submit that we're 
doing precisely what you recommend. You know, if you go back in 
history and you look at the F-14 or you look at the CH-53 Echo 
or you look at the F-18, you will see that about the 50,000 to 
60,000 hour mark, which is exactly where the V-22 is, in every 
case, readiness drops below anticipated predictive modeling. We 
are exactly where those other type model series have been, and 
now they're considered successful legacy performers, extremely 
successful performers.
    We are engaged with the Naval Air Systems Command, the rest 
of the Naval air enterprise, and our industry partners to 
correct these issues that are staring us in the face. The 
reason we're defending the program is because this airplane 
will save lives. It has already demonstrated that it will save 
lives. It is a positive thing for our Nation and that's why we 
feel passionate about it.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Towns. Thank you very much. I now yield to the 
gentleman from Illinois, Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman. I think my colleague 
is correct. Sometimes when we have these discussions, positions 
get hardened and somewhat defensive. So I'd ask the General and 
the Colonel, looking at the other way, despite the issues of 
reliability and so forth, from a sheer flying point of view, 
what would you like this to be able to do that it doesn't do?
    Colonel Heckl. Sir, to answer, I agree. I'm a 46 pilot. 
That's where I come from. But in reality, I'm an assault pilot. 
I carry Marines. I strap the airplane on, sir, and I can assure 
you that there's not a minute of the hundreds of hours I've 
accumulated in this airplane where I was concerned. Not one. As 
a matter of fact, when Marines die in helicopter crashes, on a, 
I guess I would say a regular basis, this airplane was designed 
from the ground up to be more survivable. There's no damage-
causing mechanism, no weight over the cabin. There's all kind 
of things that we could discuss offline that make it more 
survivable that a 53, or 46, or any other traditional 
helicopter does not have.
    All the weight is on the end of the wings. The auto 
rotation thing, again, addressed years ago. But I'll tell you, 
sir, it's the platform, the airplane did every mission. And I 
don't know where Mr. Sullivan and Mr. Clark were. They weren't 
at my deployment. I was the middle guy, the guy that did it 
during the heat, March to October. Didn't have a problem. I 
operated for 7 months filling combat line numbers and did not 
miss a mission.
    I don't know what else we want. Do we want them, the 
reliability to improve? Yeah. I never want my car to break 
down. It still breaks down. Do I think it's going to get 
better? I do. But I'm going to tell you right now, sir, from an 
operational standpoint, which is my lane, this thing, I was 3 
weeks in theater and we did a raid with Alpha company second 
and 504, Army guys, out of a single plane zone in Haditha, went 
and took down a zone that my 46 couldn't have even done.
    I don't know what missions we're talking about here that 
it's not doing. I'm missing something, and I must have been 
asleep in Iraq for 7 months.
    It does it all. We did cas evac, we did Medevac, we did 
raids. What else do you want? We moved Senator Obama from 
Ramahdi to Jordan, which would have taken me weeks in my 46.
    So I just want to make sure you guys--because I agree with 
you. Let's go in to this thing eyes wide open and have an 
honest assessment. An irrational defense? No. But an irrational 
offense also.
    I mean, in all honesty, the airplane performed very well. 
Were their areas we want to improve? Absolutely. I have some 
ideas that they have, about cleaning airplanes and stuff like 
that.
    But let's not go into this thing thinking the airplane 
couldn't do its mission. It's not true.
    Mr. Quigley. I'm not trying to get you to think like that 
or to suggest something that you don't believe in. But on the 
other hand, as I said, as these positions harden it's just 
human nature. Sometimes it's hard to let your defenses down. 
And that may be, you know, taking it too far, but just telling 
us what you think.
    I mean, for example, originally, I was told that this was 
supposed to have a nose-mounted Gatling gun. Is that correct?
    Colonel Heckl. Sir, I think maybe it may have.
    General Trautman. Let me comment on that. That was an 
objective, anecdotal objective early in the program and it 
proved to be not cost effective or technically feasible over 10 
years ago.
    Mr. Quigley. Well, OK. With all due respect, the cost 
effective horse has gotten out of the fence here and is running 
all over the place. But for effectiveness, I guess I want to 
know from either one of you gentlemen, whether or not it 
matters in those kind of situations that this might be in 
Afghanistan, having a front-mounted machine gun.
    General Trautman. It does matter, and so we're doing two 
things, sir. One is, we're upgunning the ramp-mounted weapon 
system from a 7.62 to a 50 caliber, and when the squadron 
deploys in the fall, it will have a 50 caliber weapons system.
    The second thing we've done is we've partnered with the Air 
Force to build a defensive weapon system that is mounted on the 
belly of the aircraft, and it will be an all-aspect weapon 
system that can shoot 360 degrees around the Osprey. We 
finished developmental test of that defensive weapon system, 
and I anticipate operational tests being completed in August. 
And the squadron that goes to Afghanistan will be, I'm 
confident, will be armed with the all-aspect weapon system that 
we've been working on over the last few months.
    Mr. Quigley. I'm sorry. Could you repeat that? When will 
this be, this full system be implemented?
    General Trautman. The developmental test is complete. We're 
doing some software changes, and we will do operational tests 
in July and August, and by September we should have a full-up, 
all-aspect weapons system, and we'll deploy eight of these 
systems with the squadron that deploys to Afghanistan in the 
fall.
    Mr. Quigley. I appreciate your candor gentleman. Thank you.
    Chairman Towns. The gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. I thank the chairman. Colonel, you clearly 
are an enthusiast for the V-22. And I take your testimony very 
seriously, having been in Iraq and in the combat zone.
    I'm just curious. When I was in Iraq, we had a very big 
sand storm back in February and all helicopters were grounded. 
Could the V-22 have operated in a sand storm?
    Colonel Heckl. Sir, I don't know if that was a staged 
question, because the airplane has a new capability called--it 
has an approach mode with a hover capability. And we actually 
had a case where we had an emergency leave, trying to get a 
Marine out. His wife had been in an accident back stateside. We 
had one of these sand storms which, if you were there over the 
summer, we had a lot of them. He was up in Wahlid, which is on 
the Syrian border. We were actually able to use the airplane to 
shoot an approach in less that a quarter mile visibility to a 
pad in Wahlid. The 46 would have been struggling to even make 
the range, sir, much less the ability to operate in that kind 
of limited visibility.
    Mr. Connolly. OK. Were you aware of cannibalization for the 
V-22s in Iraq?
    Colonel Heckl. Sir, we cannibalized on frogs.
    Mr. Connolly. I cannot hear you.
    Colonel Heckl. I'm sorry, sir. We cannibalized on CH-46s. 
We did cannibalization. It's something no commander ever wants 
to do with his airplanes, but sometimes, if a part isn't there 
and we have a mission, we will cannibalize. We tried to avoid 
it because it's double work on the Marines.
    Mr. Connolly. OK. Let me ask the General. What's it cost 
per copy for a V-22?
    General Trautman. The non-recurring flyaway cost of a block 
B MV-22 in 2009 is $64 million.
    Mr. Connolly. Not the $90-something million Mr. Tierney 
referred to?
    General Trautman. Well, sir, as you know, there's many ways 
to cut, to describe the cost of airplanes. I'm giving you a 
factual cost defined as non-recurring flyaway cost. Program 
cost, larger program costs take a different cut at the issue.
    Mr. Connolly. Mr. Sullivan, would you agree with that cost 
estimate?
    Mr. Sullivan. I think probably what we have in our report 
is the $93.4 million, which represents, that's strictly an 
average procurement unit cost. That's basically the procurement 
dollars divided by the number of----
    Mr. Connolly. By the way Mr. Sullivan, Mr. Quigley and I 
have a little private bet. Where are you from, may I ask?
    Mr. Sullivan. You'll be wrong. Chicago.
    Mr. Connolly. We're both right. Sorry. We heard those flat 
vowels. I had to ask.
    Mr. Sullivan. But if I could just, because this is 
something that comes up all the time, and I'm not sure what the 
General's number is referring to, but it sounds to me like it 
would be, if you took the last, the one, the last one off the 
line right now, because the cost tends to decrease as they 
learn more, you would get the flyaway cost for the system. It 
sounds like that may be the number that he's quoting.
    If you take the average from the first one you build to the 
last one, that's going to be less expensive. It would be about 
$93 million.
    Mr. Connolly. That's the average.
    Mr. Sullivan. That's the average right now estimated, yes.
    Mr. Connolly. Well, General, let's just say, for the sake 
of argument, it's somewhere between $64 and $93 million. When 
you cannibalize one of those things, that's a pretty expensive 
cannibalization because of lack of spare parts, isn't it?
    General Trautman. Cannibalization is not something that we 
like to do, but we do it in every type model series from time 
to time.
    Mr. Connolly. Yes, but in this particular case we have a 
report from the GAO that says that in this, with respect to the 
V-22, this is a chronic problem. It isn't an ordinary problem 
only in the combat zone. It's actually a chronic problem with 
this particular aircraft. Is that not true?
    General Trautman. I don't think so. I mean, I don't think 
it's any more chronic or typical in this airplane than in other 
airplanes.
    Mr. Connolly. So you take issue with the GAO finding with 
respect to that issue?
    General Trautman. No, I think the GAO probably found 
cannibalization and aptly criticized it.
    Mr. Connolly. No, no, no. With respect to the problem of 
reliable supply of spare parts.
    General Trautman. Oh, we do. Absolutely. We do not have the 
availability that we desire in the V-22 today. I already said 
that.
    Mr. Connolly. And to what do you attribute that problem?
    General Trautman. I attribute it to several things. The 
first of which is that some components are not meeting the 
predicted mean time between failure that engineers several 
years ago said that these parts should provide. And that's 
probably the biggest issue.
    The second biggest issue is supply, range, and depth of 
supply and the immature nature of the platform which has just 
passed material support date on October 1, 2008, 1 year after 
we deployed it into combat. So we've ridden this airplane far 
harder than any other airplane that I can describe in the last 
30 years. And so the combination of riding it hard, having some 
predictive modeling not being as accurate as we would desire, 
has put us in a hole with regard to availability and 
reliability.
    Mr. Connolly. I see my time is up. But if the Chair would 
just indulge me with one last followup to that.
    But General, given what you just said, would you not agree 
that the cannibalization with respect to this aircraft is a 
little bit unusual because of just what you said; that it's not 
your normal cannibalization, contributing to that 
cannibalization we're experiencing is this problem of supply 
chain for spare parts.
    General Trautman. I'd have to do the analysis to make sure 
that I was right with regard to my answer. But I would say that 
any time you have an airplane that isn't providing the kind of 
availability that you desire there have reasons for that, and I 
would say there's probably a connection to increased 
cannibalization associated with that particular problem. I 
think that's probably accurate, sir.
    Mr. Connolly. I thank the Chair.
    Chairman Towns. Thank you very much, gentlemen. We've been 
joined by the gentleman from Ohio. Yield 5 minutes to him for 
questions at this time.
    Mr. Kucinich. General Trautman, would you be able to yield 
most appropriately to questions about the falsifying of 
maintenance records?
    General Trautman. I'm not sure I understand, sir. Say that 
again, please.
    Mr. Kucinich. The question that deals with falsifying of 
maintenance records, what was the reason? Does anyone here know 
what the reasons were why people attempted to falsify 
maintenance records? Why did they do that? I know there were 
convictions involved, but why was that done, do you know?
    General Trautman. 10 years ago no, sir. I'm not qualified 
to respond to that.
    Mr. Kucinich. But the culture has changed, I take it, about 
maintenance records, is that right?
    General Trautman. Absolutely.
    Mr. Kucinich. And what is that culture today?
    General Trautman. I don't think you'll find an organization 
that is more upstanding and forthright than the U.S. Marine 
Corps, sir. That's my opinion.
    Mr. Kucinich. And so the performance of the V-22s in Iraq, 
what is it you're feeling has been the overall record of their 
level of performance?
    General Trautman. Their performance has been outstanding. 
It's done things that no other airplanes in the history of 
mankind could do. Its availability and reliability has fallen 
short of our desired ideal, but producing up above 70 percent 
on a daily basis, adequately allowed to perform missions that 
were needed to be performed in al Anbar province.
    Mr. Kucinich. Is it your judgment that they would be 
operationally effective in high threat environments such as 
Afghanistan?
    General Trautman. Well, Afghanistan is not what we would 
characterize as a high threat environment, sir. A high threat 
environment in the military vernacular includes an integrated 
air defense system that typically includes radar directed 
missiles. The Afghanistan environment will be, I anticipate, 
very similar to the Iraq environment which we would 
characterize as low or medium threat. A low- and medium-threat 
environment has conventional weapons, small arms, rocket 
propelled grenades and surface to air missiles, typically 
infrared surface to air missiles. So in that environment, I 
think the Osprey will be just as effective as it has been in 
Iraq.
    Mr. Kucinich. Have you, yourself, had the opportunity to be 
in one of those V-22s on any mission fights?
    General Trautman. I haven't been on any mission flights. I 
probably have a little over 10 hours at the controls of the 
airplane in fairly sterile garrison operations.
    Mr. Kucinich. Colonel Heckl, have you been in a V-22 on a 
mission flight?
    Colonel Heckl. Yes, sir. I had command of the second 
squadron in Iraq for 7 months.
    Mr. Kucinich. And can you tell me what--have you ever had 
any operational difficulties with that in high threat 
environments?
    Colonel Heckl. Well again, sir, by the definition, not high 
for us, but no, sir, I haven't.
    Mr. Kucinich. Well, in the Iraq environment, did you have 
any operational difficulties with it?
    Colonel Heckl. No, sir. And sir, I'll just give you just a 
real quick anecdote. I think everybody's familiar about the CH-
46 that got shot down a few years ago, killed everybody on 
board. It was by a surface to air missile, heat seeking 
missile.
    One thing in this airplane, the speed, like when we would 
go into Baghdad, sir, regularly, which is right on the edge of 
a black zone, back in 2008, so there were potential for surface 
to air missiles. The approach mode of this airplane, we call it 
thermally IR cooled because you've got the power back. You're 
coming down at a real high rate of speed, and it's very 
difficult and it's proved in op eval, very difficult for heat 
seeking missiles to track the airplane. And you combine that 
with the aircraft survivability equipment on board, and the 
aircraft is very survivable. Sir, I would fly the airplane into 
any threat environment.
    Mr. Kucinich. Is there any problem with cabin visibility?
    Colonel Heckl. Sir, that's an old--the crew chief, the 
enlisted guys in the back have difficulty, the windows are 
smaller. But I will tell you, sir, to the pilots up front----
    Mr. Kucinich. What is that like, though when you're in a 
vehicle moving at such a high right of speed if there's a 
problem with cabin visibility? Does that cut down your possible 
response or your judgment in any way?
    Colonel Heckl. No, sir. And the fact is, again, the 
aircraft survivability equipment on the aircraft is going to 
indicate any threat coming at me probably quicker than anybody 
in the back trying to look out of a window. It's very similar 
to CH-53 echo, sir. The windows are smaller than normal and 
they're a little bit higher, and visibility's a little more 
reduced.
    Mr. Kucinich. One final question, Mr. Chairman. I see my 
time's expired.
    The V-22 was originally designed to have a gun mounted in 
its chin. And I understand they changed the design to have a 
variant mounted on the aircraft's rear ramp. Now, if you take 
that into consideration, what you just said about visibility, 
does that, in any way, compromise the ability of the craft to 
defend its crew in a combat situation?
    Colonel Heckl. No, sir, because the nose-mounted weapon, if 
we'd have ever gotten it, which there was a lot of discussion 
at the tactical level about what good that would be on the nose 
of an aircraft that moves at 250 miles an hour--it would be 
controlled by the pilots. So, the visibility--and the 
visibility up in the cockpit, sir, is very, very good, 
particularly compared to my old C-46.
    Mr. Kucinich. And the rear quadrant of the craft is 
protected then?
    Colonel Heckl. We have the ramp-mounted weapon now, sir, 
that I had in Iraq. And the crew chiefs man that off the ramp. 
And sir, most ravine shots, assault aircraft were rear 
hemisphere shots, and that's why we did that.
    Mr. Kucinich. Thank you, sir. Thank you, Mr. Chairman.
    Chairman Towns. Let me begin with you, Mr. Sullivan. Your 
GAO reports say the V-22 may have problems operating in extreme 
temperatures and even aboard ships. It is true that this 
complex revolutionary aircraft has problems in hot and cold 
weather and operating on ships.
    Now, Colonel Heckl says that's not true. Where did you get 
the information from?
    Mr. Clark. Mr. Chairman, my team went onboard the ship with 
one of the Osprey squadrons. I spent 4 days with them, 
interviewing shipboard people and the Osprey squadron. And 
onboard ship, the Osprey is a larger aircraft. It was intended 
to operate off of six operational deck spots on the flight 
deck. That was the desire. But two of those spots near, at the 
super structure, for various reasons, are not cleared for it to 
operate off of, take off, or land vertically. So that limits 
the aircraft. And also, because of its size, the squadron, the 
air combat element that would deploy on the ship in the past 
with the CH-46s would have deployed with 12 CH-46s, and the 
other elements of the air combat element, the CH-53s and the 
AV-8s and such. But with the Osprey size, they are going only 
to deploy with 10.
    And we also found that the hanger deck, which is used to 
work on the aircraft out of the elements, because of the 
aircraft's size, there were--it restricted movement of other 
aircraft potentially around it if it was maintenance being 
conducted.
    In addition, we found that the inventory of spare parts 
that the aircraft would deploy with, called the AFCAL, that was 
significantly greater in volume than the CH-46s, to the point 
that not all of the parts would be able to deploy with the 
ship, would have been to be positioned somewhere else. And that 
was an issue.
    In terms of operating in extreme environments, the full 
mission capability rate, which is not a requirement, but is 
measured on the aircraft, on the first squadron, it was, I 
believe, around 6 percent. And the problem there is 
essentially, is the aircraft capable of meeting all assigned 
missions?
    The problem was the ice protection system with the 
aircraft. It essentially has been a problem for some time. It 
doesn't work. And so in any situation where you might fly into 
icy conditions, that would be a concern, so that hindered that 
also.
    And we also looked at the issue of at altitude. According 
to a NATOPS manual, there is a compromise between altitude and 
weight; that the aircraft certainly can fly at altitude in 
airplane mode, but in helicopter mode, landing, that there is a 
tradeoff between the aircrafts, the altitude and the weight of 
what it's carrying, either fuel or troops or cargo.
    Chairman Towns. Thank you very much. Dr. Rivolo, in your 
testimony you indicate the V-22 has an inherent design flaw 
that affects the V-22 Osprey's load-carrying capacity, 
indicating that the problem is so complex that the aircraft 
designers don't even understand it.
    That is scary. Your chart is rather complicated, so please 
explain further, if you can put it up there, in a sentence or 
two that----
    Mr. Rivolo. The intent of my testimony was to bring out the 
fact that the original designers had great hope for this 
aircraft. The initial wind tunnel runs and calculation show 
that we would have a truly spectacular aircraft. As a result of 
actually building the aircraft, the numbers fell well short. So 
as a result, the aircraft has a lifting capacity which is about 
6,000 pounds less than was expected. And we have lived with 
this because it still has considerable capability. But that 
difference, that lack of efficiency which has materialized, has 
resulted in compromise after compromise and the aircraft is not 
performing as it was designed to.
    If you were listening to a briefing in 1988, the aircraft 
was spectacular in its anticipated performance. And I just 
wanted to bring out the fact that, I realize that this is old 
news and there's not a lot of interest in it. But the aircraft 
is not as capable as it was designed to be, and we are living 
with that, obviously.
    Chairman Towns. Your testimony indicates that the V-22 may 
have problems conducting combat maneuvers. What do you mean by 
that?
    Mr. Rivolo. Yeah, that's, again that apparently is very old 
news. I have very serious concerns that, and we're talking 
about rare occurrences. We're not talking about day-to-day 
operations. If you are making an approach to a high density 
altitude and you're in helicopter mode with a full load of 
Marines and someone jumps out with an RPG, you're going to be 
very, very hard pressed to get out of there. And that has been 
documented. It's not a debatable thing.
    The only option the airplane has, it can convert very 
rapidly going forward. But forward is usually where the bullets 
are coming from.
    So my concern has been that in a real environment like 
Afghanistan, and I believe that once this aircraft deploys 
there--the reality of what's happening in Afghanistan, things 
are not getting better. Things are getting very much worse in 
Afghanistan--that the aircraft will be asked to fly these 
missions, and it will run into some of its idiosyncrasies. And 
until those happen, the discussions are not going to take place 
because we have been raising those issues now for at least 10 
years.
    And as I said, it's not only the Marine Corps, but I think 
the community at large sees it as passe' information. We're not 
interested in that; whereas, to me, the fact that the aircraft 
could not be certified by the FAA, and we are asking Marines 
to--not pilots, pilots know fully well what the risks are. They 
take them. But for a Marine who's told get into that airplane, 
when that airplane could not be certified as airworthy, there's 
a real problem there. There's a real, real problem with 
attitudes. And that's the reason why I'm here. I mean, I don't 
like to come down and get beat up. I get beat up all the time.
    Chairman Towns. Let me ask you then, General Trautman, you 
just heard Dr. Rivolo say that if the FAA examined the MV-22 it 
would not certify as being flightworthy. He just said that. By 
Federal Aviation Administration standards, the MV-22 is not 
safe for flight. Does the Marine Corp disagree with the FAA 
standards?
    General Trautman. Absolutely, sir, or we wouldn't put our 
Marines in the V-22. I can't--I'm not an expert on the FAA. I 
have no idea what this individual is saying. I know that most 
of the other things that he says I don't agree with and I find 
flaw with, but I'm not sure about the FAA's position.
    Chairman Towns. Mr. Sullivan, the GAO report indicates that 
the costs associated with the MV-22 are expected to rise 
significantly, due to operation and support. Why? I don't 
understand why.
    Mr. Sullivan. One of the things that we looked at is the 
costs now are about $11,000 per flight hour, which is much 
higher than they had originally estimated that and much higher 
than they expected. And with the problems that they're having 
now with reliability, we think it's prudent to expect that cost 
to operate and support that aircraft through its life cycle 
will probably go up some more. It's at, the total estimate now 
is at $75 billion for the 30 or so year life cycle of the V-22.
    Chairman Towns. I yield to the ranking member.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Sullivan, following up on that, isn't the single 
greatest overrun cost the fact that the engines are lasting 
dramatically less time than originally planned?
    Mr. Sullivan. Could you repeat that? I'm sorry.
    Mr. Issa. Isn't the greatest single upcost, the fact that 
the engines last roughly half what they were intended to last?
    Mr. Sullivan. I think that's right now, yeah, that's a huge 
cost that they have.
    Mr. Issa. And following up on that, do you recall the first 
Gulf war?
    Mr. Sullivan. Yes, sir.
    Mr. Issa. I do. Do you remember that basically our 
helicopters went into the first Gulf war, ingested and died 
like this, and they didn't last even a quarter what they were 
intended to, and we almost had to shut down in that relatively 
short time leading up to the campaign while they were trying to 
figure out how to stop the ingesting of dust from killing those 
aircraft engines almost overnight. Do you remember at least 
reading about that?
    Mr. Sullivan. Yes, I do.
    Mr. Issa. So, if, in fact, Boeing and its partners do their 
job, and with the Marines, and increase the longevity of that 
and a few other parts, isn't it true that although that 
projection might be right, it also could be reduced 
considerably by those parts coming closer to their original 
intended life span?
    Mr. Sullivan. You know, I think that's a possibility, yes. 
But it is just that, a possibility. Right now it takes an awful 
lot to maintain those engines after they've been run through 
there.
    Mr. Issa. General, have you charged your partners in this 
to get those times up on parts that are underperfoming the 
original specs?
    General Trautman. We have indeed, sir. We work very closely 
together. If I could just give you a couple of examples and 
reasons why I believe and our industry partners believe that 
these costs are going to come down significantly, not go up. A 
flapper on. In the beginning, we were removing and replacing 
flapper ons at a cost of $280,000 per flapper on. We've now 
figured out a way to repair these onsite for less than $10,000.
    Another example are bleed air valves. They were a throwaway 
item. $27,000 per. Now we're repairing them at $5,000 per. I 
could give you many examples, but I don't want to eat up your 
time. That's the way that we're working together with the OEM 
to improve the cost and reliability of this airplane.
    Mr. Issa. Colonel, before you flew the CH-46, what was your 
primary flight trainer? What did you learn to fly on?
    Colonel Heckl. CH-46, sir. I learned to fly a TH-57 and 
then a----
    Mr. Issa. OK. So you started with a light trainer.
    Colonel Heckl. Yes, sir.
    Mr. Issa. You weigh 200 pounds?
    Colonel Heckl. Yes, sir.
    Mr. Issa. How much could a light trainer carry on a hot 
day, just you and the instructor?
    Colonel Heckl. That was about it. On a hot day, we 
actually, a couple of guys were large enough that we would 
exceed the CG limit, so, yes, sir.
    Mr. Issa. OK. I learned to fly on a 172. The reason I 
learned to fly on a 172 is that my trainer was 220 pounds. I 
was 205 pounds, and on a hot day a Cessna 150 wouldn't take off 
with full fuel, and we weren't allowed fuel management. Our 
rules for Army aviation is we had to have full fuel on take 
off. I think they may have changed it now.
    So part of what you do, I'm assuming, on hot days is you 
manage fuel so that you're not always with full fuel, you're 
with the amount of fuel you need to help get those packs back 
up where they need to be when you're in high altitude on hot 
days.
    Colonel Heckl. Absolutely, sir. Fuel management's an issue 
in any rotor craft.
    Mr. Issa. That was my next question you anticipated is that 
all your aircraft you're always dealing with, on hot days at 
least, in high altitude, you're dealing with tradeoffs between 
fuel and passengers.
    Colonel Heckl. Absolutely, sir. In the Air Force with the 
CV variant actually trains to manage fuel to a point where they 
will dump fuel if they need to make them----
    Mr. Issa. And you're not a fixed wing pilot at all. But do 
you know of any Air Force aircraft, any jet, any prop that 
doesn't have a fuel to pack to altitude limitation where 
there's tradeoff?
    Colonel Heckl. Not that I'm aware of, sir. I know certainly 
in rotor wing.
    Mr. Issa. Well, that kind of brings me back, I think, to a 
couple of questions on this. This aircraft is not a combat 
aircraft. It is an aircraft that operates in combat, meaning 
it's not an attack aircraft, it's not designed to fly into 
bullets and RPGs deliberately, right?
    Colonel Heckl. No, sir. Actually the design was so that it 
would avoid those things.
    Mr. Issa. So the little bit of chicken armor beneath your 
seat is not intended for you to take RPGs regularly?
    Colonel Heckl. I hope not, sir.
    Mr. Issa. And that's true of the CH-46 and any other of 
that type of transport aircraft.
    Colonel Heckl. Yes, sir.
    Mr. Issa. If you were flying any of the heavy lifts, but 
the CH-46 and you were just at that critical time final, heavy, 
coming in at altitude, and you suddenly started taking fire, 
how hard is it for you to get up and move in the opposite 
direction quickly?
    Colonel Heckl. Extremely difficult, sir. As a matter of 
fact, when I went into OIF in March 2003, we had Marines that 
were loaded because we thought, you know, we're wearing all our 
gas gear and everything else. My aircraft, even though I 
managed the fuel, I barely had a minimal amount of power to 
conduct a wave off which is a, you know, pretty standard 
procedure. So very difficult, sir.
    Mr. Issa. And Doctor, to be fair to you because we have 
been sort of talking to the other side, isn't it true that if 
you were to evaluate any and all aircraft that the military 
operates, that they would all have some of these tradeoffs? And 
last, are you familiar with the DC-3, I guess it was CH-46?
    Mr. Rivolo. Yes.
    Mr. Issa. Are you aware that the FAA will not certify that 
aircraft today because it can't come out of a flat stall? It is 
an unsafe aircraft even though it has the most amount of hours 
and the safest record of any aircraft in aviation history?
    Mr. Rivolo. Yes, I'm aware of that.
    Mr. Issa. So the FAA certification you spoke to, although 
important, is not always the only telling factor.
    Mr. Rivolo. No, not at all. But if I might say, that, you 
know, at some point we will be back to this committee with a 
different issue because that rare event, you know, it is a rare 
event. It will happen. And if you deliberately do not plan for 
that, then we will be called to answer. That's my only issue, 
sir.
    Mr. Issa. That's a good one. And thank you. Thank you, Mr. 
Chairman.
    Chairman Towns. Thank you very much. I yield to the 
gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I tell you, if I was sitting here as a judge, this is a, to 
me, this is a continuation of this defense of mediocrity, and 
it bothers me tremendously. We've got a spare parts problem. 
We're cannibalizing planes that some say cost $64 million, 
others say more. And how many people have been, how many deaths 
have resulted from the use of the V-22, General?
    General Trautman. There was a mishap in 1992. I believe 
four people were there. Another mishap in 2000, 9 years ago, 
where 19 were killed and another in 2000, less than 9 years ago 
where I think 4 were on board.
    Mr. Cummings. So more than 30.
    General Trautman. Just under 30, sir.
    Mr. Cummings. And there appears to be a design problem with 
the V-22. It was designed with this forward fighting chin gun 
which was never mounted because of a lack of accuracy; is that 
right?
    General Trautman. Not a lack of accuracy, no, sir. I think 
we determined that the pilots had more important things to do 
than be attack helicopter pilots operating a chin gun.
    Mr. Cummings. But the guns couldn't be mounted on the side 
since the rotors were in the way, and the windows were far too 
small for observation or aiming; isn't that right?
    General Trautman. That's why we're excited about the 
defensive weapon system, all aspect weapon that's made it 
through developmental tests and that will soon do operational 
tests this summer.
    Mr. Cummings. Then we have an aircraft that can be docked, 
take off and land from small decks and fly far inland to drop 
off combat ready troops as the Osprey is supposed to do would 
be particularly attractive to troops that deploy aboard ships. 
However, the V-22's turbo jet engines blow hot exhaust directly 
on the deck and burn away the no skid surface and warp and 
singe the metal deck. As a result, flight operations have to be 
limited so that V-22s never sit at one place with engines 
running for more than a couple of minutes, an impossibility 
when launching over 30 aircraft. Does that----
    General Trautman. That's not accurate, Mr. Cummings. You 
know, we have 5 weeks of sustained deployment operations now 
from VMM-263, which was out on the USS Bataan. They are 
operating and doing a marvelous job. They've carried more 
passengers, more cargo, their readiness rates are higher than 
anyone else embarked with them.
    What I think you're referring to, sir, is when the necells 
are in the perpendicular mode to the ship, you don't want to 
leave them in the perpendicular mode for more than a few 
minutes. You want to adjust them, which is fine to do on the 
deck. You adjust them after landing, and then you leave them 
pointed slightly aft, and you can do that for long periods of 
time without having a problem.
    Mr. Cummings. How long can do you that?
    General Trautman. Thirty to 40 minutes. And if you're going 
to stay more than 30 to 40 minutes with your engines turning on 
an LSD or an LPD, we have a work around where we bring out 
essentially a hot plate that goes underneath the nasal and then 
they can stay for an unlimited amount of time.
    Mr. Cummings. But other than that they could burn the no-
skid surface of the----
    General Trautman. Well they could if you didn't follow the 
techniques, tactics and procedures that we've developed to 
accommodate that problem, which we've done.
    Mr. Cummings. And General, you said that there were, you 
had concerns about availability of spare parts.
    Now I want to go to Mr. Sullivan. Mr. Sullivan, how 
significant is that, and where is that controlled in the 
process, the acquisition process?
    It seems to me that, in the beginning of a process, you 
figure out the spare parts that you might need. And the 
gentleman has talked about how we're going through this 
evolution. And it seems to me that if we're truly going through 
an evolution and we're truly looking at the problems that are 
occurring, that are happening, that we would prepare for the 
spare parts because cannibalization doesn't seem to be the best 
of alternatives. Where does it come in? Is that an acquisitions 
problem or what?
    Mr. Sullivan. I think that is an acquisition program 
problem. And generally speaking, in the best of circumstances, 
you would have a design maturity curve, so to speak, where you 
figure out your mean time between failure rates and your 
reliability rates before you get anywhere near producing 
aircraft, and then you work down that curve.
    I think it's legitimate to say that, you know, this is a 
somewhat immature supply chain. But they have parts that are 
lasting only a third as long as they had predicted back when 
they had critical design reviews, 10, 15 years ago. So that, to 
us, should be a major concern. They should be further down a 
design growth curve then they are today.
    General Trautman. Sir, may I comment.
    Mr. Cummings. Yes. If the chairman allows. Thank you Mr. 
Chairman.
    General Trautman. Sir, the issue is that you use engineer 
predictive analysis, so engineers predict how long parts will 
last. They predict mean time between failure. Every type model 
series that enters into service, at about the 50,000 to 60,000 
hour mark, which is exactly where the V-22 is, starts to 
develop an actual historical track record. The actual 
historical track record when parts fail is never the same as 
the engineering predictive analysis. And so when a part fails 
before it was predicted to fail, which several parts on the V-
22 have done, you are not spared properly to immediately remove 
and replace those parts.
    So there's a lead time involved, and that's what impacts 
all type mode series as they go through this particular stage 
of their life cycle. It's not something that I enjoy or 
appreciate, but it's typical of the way engineering predictive 
analysis goes in 2009.
    Mr. Cummings. But I understand there's a storage problem in 
that you had three times the number of parts needed and went 
through all of them. Is that true?
    General Trautman. No, that's not accurate at all sir. I'm 
not sure who would say that.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Towns. I now yield 5 minutes to the gentleman from 
Virginia, Mr. Connolly.
    Mr. Connolly. Dr. Rivolo, you use some pretty strong 
language. You used the word ``reprehensible.'' You used the 
word ``disingenuous'' to describe the Marine Corps management 
of this project and this particular aircraft, in various 
context. You've heard both the Colonel, who actually 
operationally has maintained and flown the vehicle, and you've 
heard the General's explanation for cost overruns, 
cannibalization, and operational capability. What's your 
reaction to what you've heard, in light of the strong language 
you put in front of this committee?
    Mr. Rivolo. The strong language is feelings that I've had 
for many years, since 1999 when basically I discovered that the 
program was lying about the auto rotation results that we were 
getting. And these are official channels. When I discovered 
that, it seemed to me that the whole program should have been 
reevaluated simply on the this air worthiness issue. And 
instead it was very quickly dismissed by a bogus argument that 
the aircraft can make engine outlanding as an airplane, which 
is true.
    However, since the aircraft is both an airplane and a 
helicopter, it must meet airworthiness directives as an 
airplane and as a helicopter.
    So I have been very angry over this, because I have always 
looked at my job as looking out for the welfare of the people 
that ride in those airplanes. I lost that battle. I had some 
very, very vicious, vicious fights with the acquisition 
executives, with the Director of Operational Tests, and 
basically I lost the battle. And my job is to bring it out.
    We had some meetings. We had meetings with the Commandant, 
we had meetings with the Secretaries of Navy. We had a horrible 
meeting in Duncan Hunter, Sr.'s office.
    All of that was hashed out and basically dismissed as 
irrelevant. And I don't believe that it is irrelevant to have 
an airplane that when in helicopter or conversion mode, if 
there is a power interruption, everybody is guaranteed to die. 
And that is what we have in V-22.
    Mr. Connolly. Let me ask it. All right. We have an airplane 
that costs almost three times what it was originally estimated 
to cost. We have an airplane that had some bugs that had to be 
worked out that cost some lives. Yeah, we had some falsified 
records, but we are over that now. And the airplane seems to 
be--and we have scaled back our expectations of the airplane.
    Maybe our expectations were too unrealistic. And now--now 
it is performing well though we have to cannibalize it because 
we are not quite satisfied with the supply chain of spare 
parts. But it seems to be functioning and functioning well in a 
combat situation, even under extreme situations, as the colonel 
indicated. What is wrong with that? Maybe we just need to scale 
back our expectations and accept the fact that the good should 
not be the enemy of the perfect.
    Mr. Rivolo. I think that is what we have been doing since 
the year 2000.
    Mr. Connolly. But what is wrong with that? At least it is 
functioning and doing its job in Iraq.
    Mr. Rivolo. To different agendas it has different meanings. 
To the operators, the V-22 is a phenomenal machine. It is an 
incredible machine. It has enormous capability, enormous 
flexibility. It is just a dream machine.
    But there are some idiosyncrasies that will come back to 
bite us at some point. And, historically, we in the aviation 
community have had rules, and we have abided by those rules.
    Mr. Connolly. All right. Let me ask you a final question 
because I am about to run out of time, and I will ask Mr. 
Sullivan to comment, if the Chair will indulge as well.
    We had a question just a little while ago about maybe the 
contractors should have been fined. The assumption behind that 
question is, the only people responsible for the problems with 
the scope of mission, design, and operational capability and 
costs were the contractors somehow.
    To what extent did the Marine Corps, did the Pentagon, did 
the Federal Government--to what extent should we bear 
responsibility for the acquisition process that turned out to 
be less than perfect? I mean, to what extent are we also 
culpable at the Federal Government?
    Mr. Rivolo. We in the government? I think we are totally 
culpable. We are essentially saying, yes, your airplane is not 
airworthy, but we are going to put Marines in it. It is OK 
because that rare event, it may happen, but it is not 
important, OK?
    When it happens, we will talk about it, but it is not 
important, because the overall capability that this aircraft 
gives us is so great that we can do without that.
    And I just think that is unconscionable. I am sorry, but 
that is my position.
    Mr. Connolly. I wonder if the chairman would indulge Mr. 
Sullivan to simply respond to that question?
    Chairman Towns. Thank you very much.
    Let me begin by thanking the witnesses today. At the outset 
of this hearing, I expressed strong reservations about the 
performance and costs of the V-22 Osprey, but I wanted to hear 
what our witnesses had to say before reaching a conclusion.
    What we have heard today convinces me that the dream of a 
viable, high-speed, long-range tiltrotor aircraft has not been 
realized. Moreover, there is at least some evidence that the 
aircraft is inherently unsafe.
    To sum up, it can't be used in hot weather, it can't be 
used in cold weather, it can't be used in sand, it can't be 
used in high-altitude locations; and it has restricted 
maneuverability. The lists of what the Osprey cannot do is 
longer than the list that it can do.
    Not only has the Osprey failed to live up to its initial 
billing, it has failed expensively as well. Our investigation 
indicates that we have gotten half the aircraft for three times 
the cost. That is not a recipe for longevity.
    I am looking to ask the staff--I am going to ask the staff 
to prepare a report on the findings of this investigation, 
which we will forward to the Appropriations Committee with 
recommendations for further action. It is time to put the 
Osprey out of its misery and to put the taxpayers out of their 
misery.
    And, without objection, the committee stands adjourned.
    [Whereupon, at 4:13 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
